    July 17, 2006




Financial Management
Military Retirement Fund Processes
Related to Deceased Former Military
Spouses
(D-2006-098)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
COE                   Certificate of Eligibility
DFAS                  Defense Finance and Accounting Service
IGS                   Integrated Garnishment System
OMB                   Office of Management and Budget
SSA                   Social Security Administration
               Department of Defense Office of Inspector General
Report No. D-2006-098                                                        July 17, 2006
   (Project No. D2005-D000FP-0254.000)

         Military Retirement Fund Processes Related to Deceased
                        Former Military Spouses

                                 Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
(DFAS) management and staff, supporting contractor personnel who process Military
Retirement Fund payments, and military retirees should read this report. The report
discusses the validity of payments from the Military Retirement Fund to former military
spouses, and the potential for refunds to the military retiree if the former spouse dies.

Background. We performed this audit in response to congressional requests we received
after we issued Report No. D2005-007, “Military Retirement Fund Processes Related to
Deceased Retirees’ Accounts,” October 20, 2004. The constituents of these elected
officials voiced concern about possible overpayment of military retirement benefits to
accounts of deceased former military spouses.

Section 1408, title 10 United States Code, the Uniformed Service Former Spouses
Protection Act, authorizes former military spouses to receive portions of the military
retirees’ pay. This legislation qualifies former military spouses to receive up to
50 percent of military retirees’ disposable pay. Payments to former military spouses
terminate when the former military spouse or the retiree dies.

DFAS Cleveland administers the DoD Garnishment Operations Program. The DoD
Garnishment Operations Program reviews court orders and keeps records of DoD
employees’ garnishments. DFAS Cleveland personnel calculate and administer
garnishment payments out of the Retiree and Casualty Pay Subsystem. During FY 2004,
DFAS administered payments totaling about $625 million, to 77,863 former military
spouses.

Results. DFAS paid military retirement benefits to the accounts of deceased former
military spouses less than 1 percent of the time. We identified overpayments to only
14 deceased former military spouses’ accounts, out of a universe of 77,863 accounts.
One former military spouse was alive, although the Social Security Administration Death
Master File identified her as deceased. The overpayments to these accounts occurred
from the period of 1999 through 2005. In addition, in 90 percent of the accounts we
reviewed, DFAS made timely refunds to military retirees’ accounts when it learned the
former spouse had died. We found only 10 accounts where DFAS did not refund
overpayments for a period longer than 1 year after it suspended the former military
spouses’ accounts.
We identified no material management control weaknesses in the payment of military
retirement benefits to former military spouses, and DFAS plans to further improve
efficiency by providing the Defense Manpower Data Center with a monthly list of names
of former military spouses receiving payments in order to compare the list with the Social
Security Administration Death Master File.
Management Comments. We provided a draft of this report on May 24, 2006. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents


Executive Summary                                                     i

Background                                                            1

Objective                                                             2

Manager’s Internal Control Program                                    2


Other Matters of Interest                                             3


Finding
     Military Retirement Fund Procedures Related to Deceased Former
     Military Spouses                                                 4

Appendixes
     A. Scope and Methodology                                         6
         Prior Coverage                                               7
     B. Report Distribution                                           8
Background
    We performed this audit in response to Congressional requests received after we
    issued Report No D-2005-007, “Military Retirement Fund Processes Related to
    Deceased Retirees’ Accounts,” October 20, 2004. Constituents of the elected
    officials were concerned about possible overpayments of portions of the military
    retirees’ pay to their former spouses under section 1408, title 10 United States
    Code, (10 U.S.C. 1408), the Uniformed Services Former Spouses Protection Act
    (the Act).

    Uniformed Services Former Spouses Protection Act. The Act recognizes the
    right of State courts to award military retirement pay to a former military spouse
    and provides a method of enforcing these awards through the Department of
    Defense. For entitlements, the court must have awarded a former military spouse
    a portion of the member’s military retirement pay property in its final decree of
    divorce, dissolution, annulment, or legal separation (court order). A member and
    former military spouse must have been married for at least 10 years, during which
    the member performed at least 10 years of creditable military service, for a court
    order to divide retirement pay as property. Under the Act, former military
    spouses can receive, as a maximum, 50 percent of a member’s disposable
    retirement pay. The right to payments under the Act terminates upon the death of
    the member or former spouse.

    Integrated Garnishment System (IGS). Defense Finance and Accounting
    Service (DFAS) Cleveland Garnishment Operations processes all court-ordered
    garnishment for child support, alimony, and commercial debts for all military
    members and all civilian employees paid by DFAS, plus court ordered divisions
    of military retirement pay under the Act. DFAS Cleveland Garnishment
    Operations uses the IGS to maintain former spouses’ data. The IGS is a case
    management system used to store former spouses’ information. Garnishment
    Operations is staffed by lawyers and paralegals, who receive and review court
    orders and enter the data into IGS. IGS transmits the information to the Defense
    Retiree and Annuitant Pay System. The Defense Retiree and Annuitant Pay
    System is a technologically sound, standardized pay processing system that
    supports military retirees and their surviving annuitants. DFAS Cleveland
    processes military retirement pay transactions, using the Retiree and Casualty Pay
    Subsystem, and it issues payments to annuitants through the Annuitant Pay
    System.

    Defense Finance and Accounting Service. DFAS Cleveland Retired and
    Annuitant Pay is responsible for adjusting or terminating allotments to former
    spouses’ accounts. DFAS sometimes receives unconfirmed death notices from a
    former spouse’s family members, friends, or banks. Also, returned mail may lead
    DFAS to suspect that a former military spouse has died. Upon receiving an
    unconfirmed death notice, DFAS proceeds to suspend the former spouse’s
    account and sends a Certificate of Eligibility (COE) letter to determine the former
    spouse’s continued eligibility to receive military retirement benefits. When
    DFAS suspends an account, the funds are withheld until it receives the COE
    proving that the former spouse is still living or a copy of the former spouse’s
    death certificate. Once DFAS receives a confirmed death notice in the form of a


                                         1
           death certificate, newspaper clipping, or a notarized letter from the former
           spouse’s estate, it proceeds to terminate the account immediately and return any
           overpayments to the retiree.


Objective
           Our overall audit objective was to determine whether DFAS was paying military
           retirement benefits to the accounts of deceased former military spouses.
           Specifically, we evaluated procedures DFAS applied to avoid payment of military
           benefits to deceased former military spouses’ accounts. We also assessed
           management controls over the payment process for former military spouses. See
           Appendix A for a discussion of the scope and methodology, and for prior audit
           coverage related to the objectives.


Manager’s Internal Control Program
           DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,” August
           28, 1996, 1 require DoD managers to implement a comprehensive system of
           management controls that provides reasonable assurance that programs are
           operating as intended and to evaluate the adequacy of the controls.

           Scope of Review of the Management Control Program. We reviewed the
           adequacy of DFAS management controls to ensure that retirement benefits were
           terminated upon the death of former military spouses. Specifically, we
           interviewed DFAS Cleveland officials about the procedures in place to avoid
           overpayments. We also reviewed documentation for selected accounts to
           determine whether DFAS followed its prescribed procedures. Because we did not
           identify a material weakness, we did not assess management’s self-evaluation.

           Adequacy of Management Controls. DFAS management controls were
           adequate in that we identified no material management control weaknesses.




1
    Office of Management and Budget Circular No. A-123, “Management’s Responsibility for Internal
    Control,” December 21, 2004, provides updated internal control standards and new requirements for
    conducting management’s assessment of internal control over financial reporting. Revised OMB Circular
    No. A-123 became effective in FY 2006. Subsequently, DoD canceled DoD Instruction 5010.40 and
    issued DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006.



                                                     2
Other Matters of Interest
           We identified 205 social security numbers with name differences on both the
           SSA Death Master File and IGS databases. Further research indicated that about
           50 percent of the differences were caused by keystroke errors. We also matched
           the data from IGS to the SSA Enumeration Verification System, which contains
           social security information on every individual to whom the SSA has issued a
           social security number, to determine the validity of the social security number on
           DFAS’ records. We identified more than 4,000 discrepancies between the
           databases. Of those discrepancies, we provided DFAS with approximately
           3,800 accounts for further research. DFAS’s research determined that about
           68 percent of the discrepancies were either social security numbers that DFAS
           assigned to foreign national former military spouses without requesting a valid
           social security number, keystroke errors, or former spouses who changed their
           last name after the divorce and did not correct their records.

           DFAS is working to modify policies and procedures that will give DFAS greater
           flexibility to close and suspend accounts. The modifications could require
           changes to Chapter 30 of the DoD Financial Management Regulation. In
           addition, military retirees could determine if a former spouse is deceased by
           accessing the SSA Death Master File where they can request a death certificate.
           Delivery of a death certificate can expedite DFAS closing the account so the
           retiree can receive the full retirement benefit after the former spouse’s demise.

           DFAS personnel were very cooperative during the audit and took immediate
           corrective action on the minor issues we identified during our audit. Specifically,
           DFAS Cleveland entered into an agreement with the Defense Manpower Data
           Center to provide a monthly list of former military spouses in order to conduct a
           data match procedure against the Social Security Administration (SSA) Death
           Master File. 2 This procedure will further improve DFAS efficiency in identifying
           accounts that should be suspended or terminated. In addition, DFAS modified
           current policies regarding death notices and developed a new COE letter to send
           to former spouses for whom it receives unconfirmed death notices. The modified
           policy requires DFAS to follow up on COEs that a former spouse does not return
           within 90 days.




2
    A file of all deaths reported to the Social Security Administration. The file can be accessed at
    http://www.rootsweb.com.



                                                        3
           Military Retirement Fund Procedures
           Related to Deceased Former Military
           Spouses
    DFAS paid military retirement benefits to the accounts of deceased former
    military spouses less than 1 percent of the time. DFAS suspended payments upon
    receiving unconfirmed death notices and appropriately terminated former
    spouses’ accounts after receiving confirmed death notices. For accounts
    receiving payments after a former spouse’s death, DFAS refunded the amount due
    the retiree in less than 1 year, 90 percent of the time.


Guidance for Terminating Payment to Former Spouses
    United States Code. Title 10 U.S.C. 1408, March 18, 2004, “Payment of Retired
    or Retainer Pay in Compliance with Court Orders,” states that payment from the
    retired pay will terminate in accordance with the terms of the court order.
    However, it should not be later than the date of death of the member or the date of
    death of the former spouse receiving the payments.

    Office of Management and Budget. Office of Management and Budget 92-04,
    “Guidance for Termination of Federal Benefits to Deceased Beneficiaries,”
    January 15, 1992, states that Federal Agencies that pay benefits should access the
    SSA database listing deceased individuals and match the data against their own
    payment files to identify deceased beneficiaries monthly.


Payment of Benefits
    Payment of retirement benefits. DFAS appropriately disbursed military
    retirement benefits to 99 percent of the former military spouses on record in pay
    active status as of September 30, 2004. It paid approximately $625 million in
    benefits to former spouses during that fiscal year. Although 99 former military
    spouses (.1 percent), from a total universe of 77,863 accounts, were identified as
    deceased on the SSA Death Master File, only 14 were still being paid as of the
    date of our audit. When we brought the 14 reported deaths to DFAS managers’
    attention, they suspended the accounts and stopped monthly payments. The
    overpayments on these accounts during the period of 1999 through 2005 totaled
    approximately $242,000. Prior to our audit, DFAS had properly either suspended
    or terminated the remaining 85 accounts.

    DFAS mailed COE letters to the 14 former military spouses whose eligibility was
    in question. One former military spouse was alive although the SSA Death
    Master File identified her as deceased. For the remaining 13 accounts, in two
    instances, the retirees sent DFAS copies of their former spouses’ death
    certificates; and for one account, DFAS Retired Pay obtained a copy of the former
    spouse’s death certificate and provided it to Garnishment Operations. DFAS did
    not obtain any response for six accounts; therefore, they terminated the accounts.



                                         4
DFAS has appropriately terminated the remaining four accounts because the
former spouses had died.

Timeliness of refunds to retirees. For the 99 accounts we identified as
belonging to deceased former military spouses, DFAS had refunded money to the
retirees in less than 1 year for 90 percent of the accounts. However, for
10 accounts DFAS did not refund retirees’ accounts for more than a year. For
example, a retiree’s former spouse died in October 1997. DFAS learned of the
spouse’s death in April 2000 and appropriately suspended the account. DFAS
terminated the former spouse’s account in November 2005 upon receiving a copy
of the death certificate, and proceeded to credit the retiree’s account for the
money owed.




                                   5
Appendix A. Scope and Methodology
   We reviewed data from the IGS for former military spouses’ accounts. In
   addition, we reviewed data from the Defense Retiree and Annuitant Pay System-
   Retired Casualty Pay Subsystem for former military spouses’ accounts in active
   pay status as of September 30, 2004. We also reviewed applicable DFAS
   Cleveland Standard Operating Procedures, DoD Regulations, the United States
   Code, and applicable Federal Government regulations. We interviewed DFAS
   Cleveland Retired and Annuitant Pay, Garnishment Operations; and Lockheed
   Martin personnel. We also reviewed supporting documentation for accounts
   DFAS suspended but took more than a year to make final disposition
   determination on terminating the account. Additionally, we reviewed supporting
   documentation for accounts where the former spouse had been deceased for more
   than 1 year and DFAS had not taken action to terminate the account. Finally, we
   reviewed supporting documentation for all former spouses’ accounts in an active
   pay status at the start of our audit.

   We used the Audit Command Language Program to analyze the results of the data
   match between the SSA Death Master File and the database of former military
   spouses from the IGS, as of September 30, 2004. From the universe of 77,863
   former military spouses in the IGS, 99 were deceased according to SSA records.
   For these 99 accounts, only 14 were in active pay status as of the beginning of our
   audit. One of these 14 accounts returned a notarized COE stating that she was
   alive.

   We performed this audit from July 2005 through March 2006 in accordance with
   generally accepted government auditing standards as described in “Government
   Auditing Standards” issued by the Comptroller General of the United States.

   Use of Computer-Processed Data. We did not test the accuracy of benefit dollar
   amounts, in the context that we did not verify that the amounts paid to the former
   spouse accounts were the amounts due the former spouses. We did not evaluate
   the general and application controls of the IGS, the database that contains former
   military spouses’ information and the Defense Retiree and Annuitant Pay System-
   Retired Casualty Pay Subsystem, the database that processes payments to former
   military spouses. We did rely on data produced by those systems to conduct the
   audit. To assess reliability of the data, we compared the information on the
   databases to the SSA Death Master File, which is an outside source. In addition,
   we reviewed supporting documentation for some of the former military spouses’
   accounts. Not evaluating the controls did not affect the results of the audit.

   Use of Technical Assistance. The Data Mining Division under the Deputy
   Inspector General for Policy and Oversight assisted us with data mining
   procedures, including matching the SSA Death Master File against the
   information in IGS.

   Government Accountability Office High Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management area.



                                        6
Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    issued one report discussing payment of military retirement benefits to deceased
    beneficiaries. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2005-007, “Military Retirement Fund Processes Related
    to Deceased Retirees’ Accounts,” October 25, 2004




                                        7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Deputy Under Secretary of Defense (Program Integration)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
President, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Manpower Data Center
Director, National Security Agency
Defense Systems Management College

Non-Defense Federal Organization
Director, Office of Management and Budget




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        9
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Services prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Douglas P. Neville
Thomas J. Winter
Jennifer M. Principe
Jonathan M. Rabben
James B. Davis, Jr.
Demetria C. Trahan
Fred R. McComas
Ariel Vega
Warren Mayberry
